No. 20-472
IN THE

Supreme Court of the United States
HOLLYFRONTIER REFINING & MARKETING LLC, ET AL.,
Petitioners,
v.
RENEWABLE FUELS ASSOCIATION, ET AL.,
Respondents.
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

CERTIFICATE OF SERVICE
I, David M. Lehn, a member of the bar of this Court, hereby certify that, on this
31st day of March, 2021, all parties required to be served have been served copies of the
Brief for Growth Energy and American Farm Bureau Federal as Amici Curiae in
Support of Respondents in this matter by overnight courier to the addresses on the
attached service list.

DAVID M. LEHN
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
david.lehn@wilmerhale.com

SERVICE LIST
Counsel for Petitioners

Counsel for Respondents

PETER D. KEISLER
SIDLEY AUSTIN LLP
1501 K Street, NW
Washington, DC 20005
(202) 736-8027
pkeisler@sidley.com

MATTHEW W. MORRISON
PILLSBURY WINTHROP SHAW PITTMAN
1200 Seventeenth Street, NW
Washington, DC 20036
(202) 663-8036
matthew.morrison@pillsburylaw.com
ELIZABETH B. PRELOGAR
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
OFFICE OF THE SOLICITOR GENERAL
950 Pennsylvania Ave., NW
Washington, DC 20530
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

2

